                                      SOCIAL SECURITY
MEMORANDUM

Date:   March 25, 2010                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Field   Office Post-Entitlement Workload Statistics (A-04-10-21047)


        The attached final report presents the results of our review. Our objectives were to
        (1) determine whether the Social Security Administration (SSA) had procedures for
        routinely examining field office workload data for anomalous trends; and (2) review the
        reasons for some notable post-entitlement workload increases.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                          Patrick P. O’Carroll, Jr.

        Attachment
     QUICK RESPONSE
      EVALUATION
Field Office Post-Entitlement Workload
               Statistics

             A-04-10-21047




              March 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                               Background
OBJECTIVE
Our objectives were to (1) determine whether the Social Security Administration (SSA)
had procedures for routinely examining field office workload data for anomalous trends;
and (2) review the reasons for some notable post-entitlement 1 workload increases.

BACKGROUND
SSA uses the automated District Office Workload Report (DOWR) system to develop
and report comprehensive field office workload production information. The primary
purpose of DOWR is to provide weekly and/or monthly counts of measured field office
workloads. DOWR captures statistics on approximately 60 workloads. SSA maintains
the DOWR statistics on its Intranet website, which is available to both management and
staff.

DOWR data used in conjunction with other workload analysis tools enables SSA
management to measure staff and other resources expended on field office workloads.
DOWR data are an integral part of SSA’s Field Office Work Measurement System,
which SSA uses to make critical resource decisions, such as estimating future
workloads and resource requirements. In general, DOWR data are an important
component in SSA’s budgeting and staff allocation process.

Field office budgets and staff levels may be impacted by DOWR statistics. A field office
that demonstrates a continued significant increase in certain workloads may receive
additional resources to help meet the demands of the reported increased workload. As
such, it is important that SSA management properly evaluate changes in DOWR
statistics.

We analyzed DOWR data for three post-entitlement workloads in which some field
offices recorded significant overall increases from Fiscal Years (FY) 2008 to 2009, as
follows.

•   Category 18: Health Insurance (HI) — This workload includes processing
    applications for Medicare enrollment, changes in Medicare enrollment, and requests
    for replacement Medicare cards. This work involves the Title XVIII Medicare
    program.


1
  Field offices receive and process individual’s applications for enrollment into the Title II, XVI, and XVIII
programs established under the Social Security Act. After SSA determines an individual is entitled to
benefits under one or more of the programs, a beneficiary record is established in SSA’s system of
records. Subsequent actions to update these records are referred to as post-entitlement actions. Field
offices process a wide range of post-entitlement actions.


Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                                                1
•   Category 51: Supplemental Security Income (SSI) Status Changes — This
    workload includes processing changes in a beneficiary’s contact information, such
    as telephone number(s) and address(es). This workload also includes posting other
    beneficiary information such as income, resources, and changes in banking
    information. This work relates to the Title XVI SSI program.

•   Category 60: Retirement, Survivors, Disability, and Health Insurance (RSDHI)
    Status Changes — Like Category 51, this workload includes processing changes in
    a beneficiary’s contact information, such as telephone number(s) and address(es).
    However, this work involves the Title II RSDHI program.

For these three DOWR categories, we determined that about 2 percent of SSA’s field
offices had an increase of 34 percent or more in the number of workload units
processed in FYs 2008 and 2009. In fact, several field offices had increases of over
300 percent in one or more of these workload categories. We selected six offices that
had an increase of 60 percent or more in at least one of the workload categories
examined. These six offices were located in three SSA Regions—Dallas, New York,
and San Francisco. Further detail regarding our scope and methodology may be found
in Appendix B.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                       2
                                                      Results of Review
SSA management analyzed DOWR data at a national and regional level; however, this
analysis did not always focus on, or identify, anomalous trends at specific field offices.
Our interviews with regional officials and field office managers determined that some
high-priority workloads may have been routinely monitored. However, for lower-priority
tasks, such as those we examined, less emphasis was placed on examining the
rationale for unusual trends—unless a specific allegation or problem was brought to
management’s attention. For the six selected field offices reviewed, management at the
respective Regional Offices (Dallas, New York, and San Francisco) stated they had not
identified the significant changes in the three workloads we tested. However, one
regional office agreed that periodic review of existing DOWR data to detect trends and
aberrations in workloads would help ensure the integrity of its workload processes.

SSA regional officials generally provided reasonable explanations for the significant
increases in the three workloads examined. For example, at two offices, in FY 2009,
field office staff began routinely asking eligible visitors whether they wanted a Medicare
replacement card. Given the opportunity to obtain a new card, many customers
responded positively, and the work was processed. Regional management for these
offices explained that this practice was not consistent with typical field office
procedures. Since our discussions with the respective regional officials, this practice
has been discontinued. At other field offices, regional officials explained that field office
managers emphasized an improved customer service practice in which staff identified
all services and record updates that could be performed for a customer during a single
office visit. This practice was known as “full case processing.” Although these practices
caused significant increases in the three workloads reviewed, we believe the field
offices’ intention was to provide more efficient customer service. In fact, these
increases resulted in no additional resources for the field offices reviewed.

Management’s Use of DOWR Statistics
A representative from SSA’s Office of Public Service and Operations Support and
regional office management stated that changes in DOWR statistics were primarily
analyzed on a national and regional level. Generally, SSA did not evaluate DOWR
changes for specific field offices unless circumstances caused them to do so. National
DOWR data for the three workloads we reviewed indicated minor percentage changes
from FY 2008 to FY 2009. Specifically, the SSI and RSDHI Status Changes workloads
increased 7 and 4 percent, respectively, while the HI workload decreased 4 percent.
However, nationally, SSA management indicated the changes did not cause concern or
further review. Table 1 details the changes in the three workloads from FY 2008 to
FY 2009.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                          3
        Table 1: National DOWR Data - HI, SSI, and RSDHI Status Changes
                                                         Unit
                             FY 2008       FY 2009
                                                       Change       Change
    Workload Category       Number of Number of
                                                      FY 2008 to FY 2008 to
                            Work Units Work Units
                                                       FY 2009      FY 2009
 18 – HI                       802,702       769,724      -32,978        -4%
 51 – SSI Status Changes    10,779,229 11,583,075        803,846          7%
 60 – RSDHI Status Changes          9,799,796       10,180,009           380,213             4%

Of the six field offices we reviewed, three had an increase in the HI workload of about
155 percent or more. However, the regional offices were not aware of the increases
until we brought the information to their attention. Officials from all three regional offices
explained that DOWR data were not routinely analyzed to identify anomalies in these
three workload categories. Nonetheless, one of the regional offices agreed that such
analysis could provide useful management information.

Table 2 details the changes in DOWR data from FY 2008 to FY 2009 for the six offices
reviewed.

         Table 2: FY 2009 Increase in DOWR Data – Six Selected Offices’
         Workloads: HI, SSI Status Changes, and RSDHI Status Changes
                                              SSI Status        RSDHI Status
                                HI
                                               Changes            Changes
   Field Office Name    Workload Workload Workload Workload Workload Workload
                                Unit      Percent      Unit          Percent     Unit      Percent
                              Increase   Increase    Increase       Increase   Increase   Increase
 Fremont, CA                    3,292         363       2,195             22    12,537        166
 Delano, CA                     3,052         305         142            1.5     4,221         77
 North Sacramento, CA           3,445         194       6,533             21       948          8
 New Iberia, LA                 1,330         216       2,139             36       807         10
 Brooklyn Avenue X, NY          3,383         155       1,069             11     3,906         41
 San Jose, CA                     191          16       5,823             60     3,220         40

Causes for the Significant Increase in FY 2009 DOWR Categories Reviewed

Each of the three regional offices performed a review to determine the cause for the
significant increase in workloads at the six field offices selected.

The San Francisco Regional Office (SFRO) attributed the significant DOWR increases
to changes in field office management. Specifically, the new managers emphasized to
their staff a customer service practice that focused on handling all of a claimant’s needs
during a single visit. Management referred to this practice as “full case processing.”
For example, a customer who visits an office to inquire about a change in a benefit
amount would be asked if their personal contact information (telephone number and
address) had changed, whether a replacement Medicare card was needed (when
applicable), or whether any other services were required. The SFRO also stated that


Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                                 4
successful efforts to reduce certain backlogged post-entitlement workloads added to the
increase in the FY 2009 workloads we identified. During its review, the SFRO found no
evidence of unethical work practices or management coercion to inflate the number of
work units processed.

We interviewed field office managers and staff at the Fremont and Delano field offices.
Management and staff responses were consistent with the SFRO’s conclusions. The
Freemont office manager also stated that the significant increase in the HI workload
was probably due to some staff being too systematic in asking visitors whether they
wanted a Medicare replacement card.

The New York Regional Office (NYRO) found that staff working the reception windows
at the Brooklyn Avenue X field office asked all eligible visitors whether they needed a
new Medicare card. When asked, many visitors responded that they would like a new
card. Accordingly, staff processed the requests, which resulted in a significant increase
in the FY 2009 HI workload units. The NYRO further stated that this was not a regional
practice, and field office staff had been instructed to only process a replacement
Medicare card application at the customer’s request. Finally, the NYRO stated that the
increase in the HI workload would not have led to additional staff for the field office.

The Dallas Regional Office (DRO) found a cause similar to that identified by the NYRO.
The DRO attributed the increase to a small number of employees who began routinely
asking visitors if they would like a replacement Medicare card. Many of the customers
responded that they would like a replacement card, and staff processed the requests
accordingly. The DRO advised field office management to instruct staff to discontinue
this practice.

Workload Increases Did Not Result in Additional Field Office Staff

Management at SFRO, NYRO, and DRO stated that the increases in these workloads
would have had little impact on their decisions to provide the offices additional staff.
Regional management further explained that DOWR statistics are only one of many
factors considered when making field office staffing decisions. Other, more critical,
factors evaluated in staffing decisions include

•   changes in a field office’s service area,
•   specific needs of a field office’s service area,
•   significant changes in the number of visitors at a particular field office,
•   existence of special or backlogged workloads, and
•   expected changes in staff due to retirement and transfers.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                          5
The Associate Commissioner for Public Service and Operations Support emphasized
that the causes for the DOWR anomalies were isolated events. Further, SSA’s review
found that, although the increases in these workloads were significant, they were not at
a level that would impact data used in regional and field office staffing decisions.
Finally, the Associate Commissioner stated that his office does not encourage regional
management to take unnecessary actions to increase workload credits.

From the end of FY 2008 to the end of FY 2009, the number of on-duty employees
increased at two of the six offices we reviewed. The number of employees at the
New Iberia office increased by one, while the Delano field office increased by two. The
number of employees at the other four offices did not change. Table 3 details the
number of employees at each of the six field offices.

           Table 3: On-Duty Employees at the End of FYs 2008 and 2009
                             Number of        Number of          Change in
       Office Name         Employees as     Employees as of      Number of
                            of 9/30/2008       9/30/2009         Employees
 Fremont, CA                     26               26                  0
 North Sacramento, CA            43               43                  0
 San Jose, CA                    30               30                  0
 Brooklyn Avenue X, NY           43               43                  0
 New Iberia, LA                  14               15                 +1
 Delano, CA                      11               13                 +2

SSA management explained that the staff increases at the two offices resulted from
factors unrelated to the increases in the three DOWR workloads reviewed. Specifically,
staff was added at the New Iberia field office primarily to help with the increase in
customer visits. The DRO stated that the New Iberia office had a 7.1-percent increase
in visitors from FY 2008 to FY 2009. At the Delano field office, the SFRO explained that
one staff increase resulted when a claims representative position vacated in FY 2008
was filled in FY 2009, and one other staff was added in FY 2009 based on the office
needs.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                      6
                                     Matters for Consideration
DOWR statistics provide management with a useful tool for monitoring field office
workloads. Workload statistics can assist management in identifying significant
changes in workloads and help with deciding where staff and resources could be best
allocated. We understand that DOWR statistics are only one of many factors
considered when making field office staffing decisions. Other important factors
evaluated in staffing decisions include changes in or specific needs of a field office’s
service area, number of visitors, and special or backlogged workloads.

Although all three regional offices explained that the significant workload changes we
identified did not impact their field office staffing decisions, their investigations of
workload anomalies found some cause for minor corrective actions. The DRO and
NYRO responded that their investigations found several field office staff were not
processing the HI workload in accordance with regional practices. Both Regions
considered the problems to be minor but took corrective actions. The SFRO primarily
attributed the workload increases to management’s emphasis on “full case processing,”
a work efficiency practice that attempts to identify and complete as many services a
visitor may need during one visit. Full case processing aside, the manager at the office
with the highest increase in the HI workload was concerned that this workload was not
being worked as intended. He investigated the matter and took some minor corrective
actions that should reduce this workload count.

To ensure SSA management identifies significant changes in all workload statistics,
which may indicate potential problems in workloads or a need for employee training, we
believe SSA should consider requiring that regional offices develop workload trend
statistics for all DOWR categories for each of their respective field offices. From these
data, SSA should identify and investigate significant workload anomalies. In response
to our draft report, SSA agreed that regional offices should develop DOWR trend
statistics for each of their respective field offices and stated it will work to implement this
practice.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                            7
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C - OIG Contacts and Staff Acknowledgments




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)
                                                                       Appendix A

Acronyms
    DOWR                District Office Workload Report

    DRO                 Dallas Regional Office

    FY                  Fiscal Year

    HI                  Health Insurance

    NYRO                New York Regional Office

    OIG                 Office of the Inspector General

    RSDHI               Retirement, Survivor, Disability, and Health Insurance

    SFRO                San Francisco Regional Office

    SSA                 Social Security Administration

    SSI                 Supplemental Security Income




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Obtained and analyzed District Office Workload Report (DOWR) data for
    Fiscal Years 2008 through 2009 for three workload categories.

            Category 18 – Health Insurance
            Category 51 – Supplemental Security Income Status Changes
            Category 60 – Retirement, Survivors, Disability, and Health Insurance
             Status Changes

•   We reviewed applicable sections of Social Security Administration’s Management
    Information Manual - II.

•   We selected six offices that had an increase of 60 percent or more in at least one of
    the workload categories examined. For these offices, we performed detailed
    analysis of all DOWR workload categories. The six offices were located in three of
    SSA’s Regions – Dallas, New York, and San Francisco. The six field offices were:

            New Iberia, Louisiana – Dallas Region
            Brooklyn Avenue X, New York – New York Region
            Delano, California – San Francisco Region
            Fremont, California – San Francisco Region
            North Sacramento, California – San Francisco Region
            San Jose, California – San Francisco Region

•   We interviewed officials from the Office of Public Service and Operations Support,
    Dallas Regional Office, New York Regional Office, and San Francisco Regional
    Office, all under the Deputy Commissioner for Operations.

•   We obtained and reviewed the results of the regional offices’ investigations into
    workload increases at the six selected offices.

•   We visited and interviewed field office managers and staff (service representatives,
    and claims representatives) at the Fremont and San Jose field offices.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                       B-1
We performed our review from October 2009 through January 2010 in Fremont and
San Jose, California, and Atlanta, Georgia. The component reviewed was the Office of
the Deputy Commissioner for Operations. Our review of internal controls was limited to
SSA’s process for monitoring and addressing DOWR trends and anomalies. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.1




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency. The Inspector General Reform Act of 2008, Pub. L.
No. 110-409 § 7, 5 U.S.C. App. 3 § 11.

Field Office Post-Entitlement Workload Statistics (A-04-10-21047)                                     B-2
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager, Atlanta Office of Audit

Acknowledgments
In addition to those named above:

   Luis A. Ramírez, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-21047.




Field Office Post-Entitlement Workload Statistics (A-04-10-21047)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
